APPENDIX
Appendix A

Judgment by the Court of Appeal

Appendix B

Judgment by the District Court

Appendix C

Order by the Court of Appeal Denying Petition for Rehearing

Appendix D

Injunctions entered by the District Court

20

APPENDIX A

Securities and Exchange Commission v. Bilzerian, 811 Fed.Appx. 3 (2020)

8 n Fed.Appx. 3 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. D.C.Cir. Rule 32.1 and Rule 36.
United States Court of Appeals,
District of Columbia Circuit.

SECURITIES AND EXCHANGE
COMMISSION, Appellee
v.
Paul A. BILZERIAN, Appellant
Ernest B. Haire, Appellee
No. 18-5109

I
September Term, 2019
Filed On: June 24, 2020

I
Rehearing En Banc Denied August 28, 2020
ON APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF COLUMBIA, 1:89cv-01854-RCL
Attorneys and Law Firms
Hope Hall Augustini, Senior Litigation Counsel, Michael
Andrew Conley, Solicitor, Emily True Parise, Attorney, U.S.
Securities and Exchange Commission, (SEC) Office of the
General Counsel, Washington, DC, for Plaintiff-Appellee
Paul A. Bilzerian, Pro Se

Per Curiam
This appeal was considered on the record from the United
States District Court for the District of Columbia and on the
briefs filed by the parties. See Fed. R. App. P. 34(a)(2); D.C.
Cir. Rule 34(j). It is
ORDERED AND ADJUDGED that the district court's order
filed March 27, 2018, denying appellant's motion for relief
from judgment under *4 Federal Rule of Civil Procedure
60(b)(5), be affirmed. The district court did not abuse
its discretion in denying appellant's Rule 60(b)(5) motion,
because he has not demonstrated “ ‘a significant change
either in factual conditions or in law’ ” that renders continued
enforcement of the filing injunctions entered against him
“ ‘detrimental to the public interest.’ ” Am. Council for
the Blind v, Mnuchin. 878 F.3d 360, 366 (D.C. Cir. 2017)
(quoting Horne v. Flores. 557 U S. 433, 447, 129 S.Ct. 2579,
174 L.Ed.2d 406 (2009)). It is
FURTHER ORDERED that appellant's challenge to the
district court's order filed March 27,2018, denying his motion
for permission to participate in his wife's bankruptcy case,
be dismissed as moot. Appellant has represented that the
bankruptcy court decided the issue which gave rise to his
motion for permission to participate in March 2018, and,
therefore, his appeal of the district court order denying that
motion is now moot. See McBrvde v. Comm, to Review. 264
F.3d 52,55 (D.C. Cir. 2001) (“If events outrun the controversy
such that the court can grant no meaningful relief, the case
must be dismissed as moot.”).
Pursuant to D.C. Circuit Rule 36, this disposition will not be
published. The Clerk is directed to withhold issuance of the
mandate herein until seven days after resolution of any timely
petition for rehearing or petition for rehearing en banc. See
Fed. R. App. P. 41(b); D.C. Cir. Rule 41.

Ernest B. Haire, Pro Se
All Citations
BEFORE: Henderson, Griffith, and Katsas, Circuit Judges
811 Fed.Appx. 3 (Mem)
JUDGMENT

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

WiESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

!

APPENDIX B

Case l:89-cv-01854-RCL Document 1219 Filed 03/27/18 Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Securities and Exchange Commission,
Plaintiff,
v.

Paul Bilzerian;
Defendants.

§
§
§
§
§
§
§
§
§

No. 1:89-CV-01854-RCL

Order

Upon consideration of Paul A. Bilzerian’s Rule 60(b) Motion [1215] to Terminate
Litigation Injunctions Entered on July 5. 2001 [Did 318] and July 19, 2001 [Dkt 416] and Verified
Memorandum in Support, and the entire record in this case, this Court finds that the motion must
be DENIED. The defendant has never fully satisfied the money j udgment that was entered against
him in this case. The receivership was just one of many efforts made by the plaintiff to seek
payment of the outstanding judgment . The injunction here will not be terminated.
It is so ordered.

SIGNED this.

day of March, 2018.

c\
HONORARLE ROYCE LAMBERTH
UNITED STATES DISTRICT JUDGE

APPENDIX C

USCA Case #18-5109

Document #1858835

Filed: 08/28/2020

Page 1 of 1

jptmtefr JStates (Etnxvt of
For The District of Columbia Circuit

September Term, 2019

No. 18-5109

1:89-cv-01854-RCL
Filed On: August 28, 2020
Securities and Exchange Commission,
Appellee
v.
Paul A. Bilzerian
Appellant
Ernest B. Haire
Appellee

BEFORE:

Henderson, Griffith, and Katsas, Circuit Judges
ORDER

Upon consideration of the petition for rehearing, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Isl
Michael C. McGrail
Deputy Clerk

APPENDIX D

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

FILED
JUL

SECURITIES AND EXCHANGE COMMISSION,

5 2001

,wtUT MAYER WHITTINGTON. CL&RK
US. DISTRICT COURT

Plaintiff,
Civil Action
No. 89-1854 (RCL)

v.
PAUL A. BILZERIAN, et al,
Defendants.

SHOW CAUSE ORDER
Deborah R. Meshulam, solely in her capacity as Receiver (the "Receiver") of the
Securities and Exchange Commission v. Paul A. Bilzerian, et al., Civil Action No. 8901854 (SSH) Receivership Estate, having made a preliminary showing that Defendant Paul
A. Bilzerian is in violation of the Order Appointing Receiver, entered on December 22

&&

’'Zifa, hut

2000 by this Court, it is hereby

A

C

'

i n ut n'ti'ty'
ORDERED that Defendant Paul A. Bilzerian show cause on Tv/^ /ff- , 2001 at
why he should not be held in civifcontempt of the December 22, 2000 Order

:'s
-t9
th*> Receiver’s
of this Court. Mr. Bilzerian may flip. ^ rnf*mrtr?iH'im in
fx> 5A.4 ***
nrhp%0 July ,, t 2QQ1 and/he Receiver may file a memorandum in reply on
or before July /£>, 2001.
In light of the matters set forth in the Supplemental Memorandum in Further
Support of her June 25, 2001 Motion For Show Cause Order and Other Relief, and
specifically, the entry of an Order in the United States Bankruptcy Court for the Middle

utkt'fa.r

54*^/^ ttfs* ht

District of Florida authorizing Mr. Bilzerian to file a complaint in that Court concerning
his interest in property of the Receivership Estate, it is
ORDERED that Defendant Paul A. Bilzerian is prohibited from filing or causing
the filing of any complaint, proceeding or motion in the United States Bankruptcy Court
for the Middle District of Florida, or from otherwise commencing or causing the
commencement of any proceedings in any court, other than this Court or appeals of this
Court’s orders to the United States Court of Appeals for the District of Columbia, without
prior application to and approval of this Court; and it is further
ORDERED that if Defendant Paul A. Bilzerian has already filed a complaint in
the United States Bankruptcy Court for the Middle District of Florida, he shall
immediately file a notice of dismissal pursuant to Bankruptcy Rule 7041; and it is further
ORDERED that if Defendant Paul A. Bilzerian has already filed a complaint in
the United States Bankruptcy Court and fails to immediately file a notice of dismissal
pursuant to Bankruptcy Rule 7041, the Receiver is hereby authorized and directed to take
such action on his behalf and to take all steps necessary, if any, to close the bankruptcy
proceeding in the United States Bankruptcy Court for the Middle District of Florida; and
it is further
ORDERED that the Federal"' Bureau of Prisons shall (i) accept a copy of this
Order, (ii) shall deliver same to Defendant Paul A. Bilzerian forthwith, but in any event
no later than one business day after the date of its receipt, and (iii) certify to this court
that this Order was delivered to Mr. Bilzerian.
DATED:

7-r^o /
HONYROYCE C. LAMBERTH
UNITED STATES DISTRICT JUDGE

<?:?> $T
J*,
r*

ftcy

'~V;<srrx<jL Cos,st, 'f.~D,r/or;0icL.

*Uy**U' I* - P**

i'

S'. 7*

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
Civil Action
No. 89-1854 (RCL)

v.
PAUL A. BILZERIAN, et aL,

FILED
Defendants.

'JUL 1 9 200!
NANCY MAYER WWITTING TON, CLERK
U.S DISTRICT COUP:

ORDER
Before the Court is the motion of Deborah R. Meshulam, solely in her capacity as
Receiver of the Securities and Exchange Commission v. Paul A. Bilzerian, et ai, Civil Action
No. 890-1854 (RCL) Receivership Estate (the “Receiver”), for an order holding the Defendant,
Paul A. Bilzerian, in civil contempt for failure to comply with the Court’s Order Appointing
Receiver, dated December 22, 2000, as amended by Order dated March I, 2001 (the
“Receivership Order”). The Court finds that Defendant is in contempt of the Receivership Order
and grants the motion of the Receiver. Accordingly, on this

day of

,2001, it

is hereby:
ORDERED, that Defendant, Paul A. Bilzerian, is adjudged and decreed to be in
contempt of this Court’s Receivership Order; it is further
ORDERED, that in order to purge himself of this finding of civil contempt,
Defendant, Paul A. Bilzerian, shall, within two (2) business days of entry of this Order,

t f \ i

withdraw with prejudice his motion filed in In Re: Paul A. Bilzerian, Debtor. Case No.
91-10466-8P7 (Bnkr. M.D. Fla., Tampa Div.) seeking to reopen that proceeding
(“Motion to Reopen”); it is further
ORDERED, that in the event that Defendant, Paul A. Bilzerian, fails to withdraw
he Motion to Reopen as ordered by this Court, then, pursuant to Fed. R. Civ. Pro. 70, the

el

X.
Receiver

is empowered and directed to withdraw said motion in place and stead of

Defendant, Paul A. Bilzerian, and to take all other necessary steps, if any, to close the
bankruptcy proceeding in the United States Bankruptcy Court for the Middle District of
Florida; and it is further
ORDERED, that should the Receiver be required to withdraw the Motion to
Reopen, Defendant Paul A. Bilzerian, shall bear all costs and fees associated therewith;
and it is further
ORDERED that Defendant Paul A. Bilzerian, his agents, servants, employees, and
attorneys, and those persons in active concert or participation with them, who receive actual
notice of this Order by personal service or otherwise, are prohibited from filing or causing the
filing of any complaint, proceeding or motion in the United States Bankruptcy Court for the
Middle District of Florida, or from otherwise commencing or causing the commencement of any
proceedings in any court, other than in this Court or in appeals of this Court’s Orders to the
United States Court of Appeals for the District of Columbia, without prior application to and
approval of this Court; and it is further
ORDERED that if Defendant Paul A. Bilzerian has already filed a complaint in the
United States Bankruptcy Court for the Middle District of Florida, he shall immediately file a
notice of dismissal pursuant to Bankruptcy Rule 7041; and it is further

ORDERED that if Defendant Paul A. Bilzerian has already filed a complaint in the
United States Bankruptcy Court and fails to immediately file a notice of dismissal pursuant to
Bankruptcy Rule 7041, the Receiver is hereby authorized and directed to take such action on his
behalf and to take all other necessary steps, if any, to dismiss such complaint in the United States
Bankruptcy Court for the Middle District of Florida; and it is further
ORDERED that the U.S. Marshals Service shall (i) accept a copy of this Order, (ii) shall
deliver same to Defendant Paul A. Bilzerian forthwith, but in any event no later than one
(1) business day after the date of its receipt, and (iii) certify to this Court that this Order was
delivered to Defendant, Paul A. Bilzerian.

DATED:
HON. KOYCE C. LAMBERTH
UNITED STATES DISTRICT JUDGE
i

